Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




STATE MEDICAID POLICIES AND
   OVERSIGHT ACTIVITIES
RELATED TO 340B-PURCHASED
          DRUGS




                    Daniel R. Levinson
                     Inspector General

                       June 2011
                     OEI-05-09-00321
   E X E C U T I V E                                       S U M M A R Y


                  OBJECTIVE
                  To describe State Medicaid agencies’ policies and oversight activities
                  related to drugs purchased under the 340B Drug Discount Program.


                  BACKGROUND
                  The 340B Drug Discount Program (340B Program) requires drug
                  manufacturers to provide covered outpatient drugs to certain eligible
                  health care entities, known as covered entities, at or below statutorily
                  defined discount prices (340B ceiling prices). After a Federal qui tam
                  lawsuit alleged that covered entities overcharged Medicaid for drugs
                  purchased under the 340B Program (340B-purchased drugs), Senator
                  Charles Grassley requested that the Office of Inspector General describe
                  Medicaid reimbursement practices related to the 340B Program.
                  The Health Resources and Services Administration (HRSA), the agency
                  that administers the 340B Program, has issued guidance regarding
                  billing of 340B-purchased drugs. In 1993, HRSA directed covered
                  entities to bill State Medicaid agencies at actual acquisition cost (AAC)
                  for 340B-purchased drugs. In 2000, HRSA issued new guidance
                  directing covered entities to instead refer to State Medicaid agencies’
                  policies for applicable billing policies. The Patient Protection and
                  Affordable Care Act (ACA) requires the Secretary to issue new guidance
                  describing methodologies available to covered entities for billing
                  340B-purchased drugs to State Medicaid agencies.
                  State Medicaid agencies generally create State-specific billing and
                  reimbursement policies and may also choose to do so specifically for
                  340B-purchased drugs that covered entities dispense to Medicaid
                  patients (referred to as 340B policies). The Centers for Medicare &
                  Medicaid Services (CMS), which administers the Medicaid program at
                  the Federal level, does not require State Medicaid agencies to set 340B
                  policies.
                  When reimbursing for 340B-purchased drugs, State Medicaid agencies
                  have a responsibility to accurately reimburse covered entities and
                  appropriately claim Medicaid rebates from drug manufacturers. State
                  Medicaid agencies can use prepay edits and postpay reviews to ensure
                  accurate reimbursements. With respect to rebates, State Medicaid
                  agencies should exclude claims for 340B-purchased drugs (340B claims)
                  from Medicaid rebate requests to prevent subjecting drug
                  manufacturers to duplicate discounts (i.e., selling 340B-purchased drugs

OEI-05-09-00321   S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   i
E   X   E C     U T   I     V      E            S      U M            M        A       R Y


                          to covered entities at the discounted ceiling prices and providing
                          Medicaid rebates on the same drugs).
                          HRSA created the Medicaid Exclusion File to help State Medicaid
                          agencies identify 340B claims. The ACA requires that the Secretary
                          develop procedures for covered entities to annually update their
                          information in HRSA’s covered-entity database, from which the file is
                          derived.
                          In March 2010, we surveyed 50 State Medicaid agencies and the District
                          of Columbia’s Medicaid agency (hereinafter referred to as States) about
                          their policies and oversight activities related to 340B-purchased drugs.
                          We received responses from all 51 States.


                          FINDINGS
                          Approximately half of States have written 340B policies that direct
                          covered entities to bill Medicaid at cost for 340B-purchased drugs.
                          Twenty-five States reported having written policies that direct covered
                          entities to bill at AAC for 340B-purchased drugs, while 25 States do not
                          have written policies. One State has a written policy to reimburse
                          340B-purchased drugs at rates other than AAC. Over half of States
                          without written 340B policies reported that they rely on HRSA’s 1993
                          guidance directing covered entities to bill States at AAC, despite
                          subsequent HRSA guidance directing covered entities to refer to States’
                          policies. Based on the 1993 HRSA guidance, these States reported that
                          they expect covered entities to bill at AAC.
                          States do not have necessary pricing information to create prepay
                          edits for 340B-purchased drugs; 20 States conduct postpay reviews
                          to identify overpayments. States do not have access to AAC or 340B
                          ceiling prices because of logistical and legal issues. States cannot create
                          effective prepay edits because without AAC or 340B ceiling prices they are
                          unable to tell when the amount that covered entities bill exceeds
                          established State policies, which are typically AAC. Twenty States
                          conduct postpay reviews to identify overpayments for 340B-purchased
                          drugs.
                          Over half of States developed alternatives to the Medicaid Exclusion
                          File to identify 340B claims and prevent duplicate discounts. Thirty
                          States reported that they developed alternatives to the Medicaid Exclusion
                          File to identify 340B claims and prevent duplicate discounts. Of these
                          States, 26 contacted all or some of the covered entities in their States
                          directly and created their own lists of covered entities that dispense

    OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   ii
E   X   E C     U T   I     V      E            S      U M            M        A       R Y


                          340B-purchased drugs to Medicaid patients. Nine of the thirty States
                          instruct covered entities to identify specific 340B claims using the
                          National Council for Prescription Drug Plan (NCPDP) Telecommunication
                          Standard, an electronic standard used in pharmacies’ prescription drug
                          transactions, and two States instruct covered entities to bill using an
                          alternative billing identification number. Ten of the thirty States that use
                          alternatives reported that they do so because of inaccuracies in the
                          Medicaid Exclusion File.
                          Fourteen States use only the Medicaid Exclusion File to identify 340B
                          claims, and seven States reported that they do not use any method to
                          identify 340B claims.


                          RECOMMENDATIONS
                          Based on our findings, we recommend that:
                          CMS direct States to create written 340B policies. CMS should direct
                          States to create written 340B policies if they do not have them in place.
                          CMS could also encourage States to consider the benefits and
                          drawbacks of different 340B policies before setting their policies.
                          CMS inform States about tools they can use to identify claims for
                          340B-purchased drugs. CMS should inform States that they can have
                          covered entities use the NCPDP Telecommunication Standard to
                          identify 340B claims. CMS could also direct States to the Medicaid
                          Exclusion File tutorial on HRSA’s Web site.
                          HRSA share 340B ceiling prices with States. Providing 340B ceiling
                          prices to States will help them create prepay edits to oversee their
                          reimbursements for 340B-purchased drugs. Although the ACA gave
                          HRSA authority to share 340B ceiling prices with covered entities,
                          HRSA would have to seek legislative authority to share 340B ceiling
                          prices with States.
                          HRSA, in conjunction with CMS, improve the accuracy of the
                          Medicaid Exclusion File. HRSA should instruct covered entities to
                          update their information in the Medicaid Exclusion File. HRSA could
                          also work with States to ensure that covered entities’ information in the
                          file is correct. In addition, CMS could instruct States to notify HRSA if
                          they find discrepancies between their records and the Medicaid
                          Exclusion File.




    OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   iii
E   X   E C     U T   I     V      E            S      U M            M        A       R Y



                          AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                          GENERAL RESPONSE
                          CMS concurred with our recommendations. To address them, CMS
                          plans to (1) inform States that they should incorporate 340B policies
                          into their Medicaid State Plans, (2) inform States of alternative
                          methods of identifying 340B claims that we identified in this report, and
                          (3) facilitate communication between HRSA and States by providing a
                          list of State Medicaid pharmacy directors to HRSA and instructing
                          States to contact HRSA when errors in the Medicaid Exclusion File are
                          found.
                          HRSA also concurred with our recommendations. However, it did not
                          specify any actions it would take in response to them.




    OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         FINDINGS .................................................. 9
                   Approximately half of States have written 340B policies that
                   direct covered entities to bill Medicaid at cost for
                   340B-purchased drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   States do not have necessary pricing information to create
                   prepay edits for 340B-purchased drugs; 20 States conduct
                   postpay reviews to identify overpayments . . . . . . . . . . . . . . . . . . . 11

                   Over half of States developed alternatives to the Medicaid
                   Exclusion File to identify 340B claims and prevent duplicate
                   discounts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   Agencies’ Comments and Office of Inspector General Response . . 17



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                   A: State Medicaid Agencies’ 340B Policies . . . . . . . . . . . . . . . . . . 19

                   B: Agencies’ Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
I   N T   R O D U C T I O N
       I N T R O D U C T I O N


                      OBJECTIVE
                      To describe State Medicaid agencies’ policies and oversight activities
                      related to drugs purchased under the 340B Drug Discount Program
                      (340B Program).


                      BACKGROUND
                      A 2005 Federal qui tam lawsuit alleged that some 340B-covered entities
                      overcharged a State Medicaid agency for covered outpatient drugs.
                      Partly in response to this lawsuit, Senator Charles Grassley requested
                      that the Office of Inspector General (OIG) describe Medicaid
                      reimbursement practices related to the 340B Program.
                      The 340B Program
                      The Veterans Health Care Act of 1992 established the 340B Program in
                      section 340B of the Public Health Service Act (PHS Act). 1 The 340B
                      Program requires drug manufacturers participating in Medicaid to
                      provide discounted covered outpatient drugs to certain eligible health
                      care entities, known as covered entities. Congress intended for the
                      savings from discounted drugs purchased under the 340B Program “to
                      enable [participating] entities to stretch scarce Federal resources as far
                      as possible, reaching more eligible patients and providing more
                      comprehensive services.” 2
                      Covered entities include disproportionate share hospitals, family
                      planning clinics, and federally qualified health centers, among others.3
                      As of October 2010, approximately 15,000 covered-entity locations were
                      enrolled in the 340B Program.
                      To participate in the 340B Program, covered entities must register with
                      the Health Resources and Services Administration (HRSA), the agency
                      responsible for administering the 340B Program. After the entity has
                      registered, HRSA enters the entity’s information into HRSA’s
                      covered-entity database.4 Provisions in the Patient Protection and


                        1 Veterans Health Care Act of 1992, P.L. 102-585 § 602; PHS Act § 340B; 42 U.S.C. §

                      256b.
                          2 H.R. Rep. No. 102-384, at 12 (1992)(Conf. Rep.).
                          3 42 U.S.C. § 256b(a)(4) enumerates the complete list of the types of entities eligible to

                      become 340B-covered entities.
                        4 The 340B Program registration form may be found on HRSA’s Web site. Accessed at

                      http://www.hrsa.gov on February 10, 2010.



    OEI-05-09-00321   S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   1
I   N T    R O        D   U      C T           I     O       N


                              Affordable Care Act (ACA) require HRSA to develop procedures for
                              covered entities to annually update their information in the
                              covered-entity database.5
                              Once approved, covered entities may purchase and dispense drugs
                              under the 340B Program (hereinafter referred to as 340B-purchased
                              drugs) through in-house pharmacies, or they may enter into contracts
                              with retail pharmacies to dispense 340B-purchased drugs on their
                              behalf. 6 A retail pharmacy dispensing 340B-purchased drugs on behalf
                              of a covered entity is referred to as a contract pharmacy.
                              Covered entities may purchase drugs at or below 340B ceiling prices,
                              which are the maximum prices drug manufacturers can charge for each
                              340B-purchased drug. 7 The 340B ceiling price is calculated using a
                              statutorily defined formula based on the average manufacturer price
                              (AMP) of drugs. In general, AMP is the average price paid to drug
                              manufacturers for drugs distributed to retail community pharmacies. 8
                              Drug manufacturers must calculate and report AMP to the Centers for
                              Medicare & Medicaid Services (CMS). The 340B ceiling price of a drug
                              is generally much lower than its retail price.
                              Historically, neither CMS nor HRSA have shared AMP or the calculated
                              340B ceiling prices with State Medicaid agencies. The Deficit Reduction
                              Act of 2005 gave CMS authority to share AMP with State Medicaid
                              agencies. However, a Federal court injunction prohibited CMS from
                              sharing AMP with State Medicaid agencies. 9, 10 The injunction was
                              withdrawn in December 2010. HRSA has not shared 340B ceiling prices
                              with State Medicaid agencies as it does not have legislative authority to
                              do so. The ACA provided HRSA with the authority to share 340B
                              ceiling prices with covered entities. 11




                                  5 ACA, P.L. 111-148 § 7102(a); PHS Act § 340B(d)(2)(B)(i); 42 U.S.C. § 256b(d)(2)(B)(i).
                                  6 61 Fed. Reg. 43549, 43555 (Aug. 23, 1996).
                                  7 42 U.S.C. § 256b(a)(1).
                                  8 42 U.S.C § 1396r-8(k)(1). The statutory definition of AMP was redefined by the ACA to

                              include direct manufacturer sales to retail community pharmacies as well as sales to
                              wholesalers that supply retail community pharmacies, and to clarify which types of
                              discounts should be excluded from the calculation. ACA, P.L. 111-148 § 2503(a)(2).
                                  9 42 U.S.C. § 1396r-8(b)(3).
                                  10 National Association of Chain Drug Stores v. Leavitt, U.S. District Court for the
                              District of Columbia, Dec. 19, 2007, Civil Action No. 1:07cv02017 (RCL).
                                  11 ACA, P.L. 111-148 § 7102(a), PHS Act § 340B(d)(1)(B)(iii), 42 U.S.C. §256b(d)(1)(B)(iii).




    OEI-05-09-00321           S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   2
I   N T    R O        D   U      C T           I     O       N




                              Medicaid Prescription Drug Benefit
                              All State Medicaid agencies offer outpatient prescription drug coverage
                              and reimburse retail pharmacies for covered outpatient drugs dispensed to
                              Medicaid patients. Overall, the Medicaid program spent approximately
                              $23 billion on prescription drug coverage in 2009.12 CMS monitors the
                              Medicaid program at the Federal level.
                              State Medicaid agencies are expected to act as prudent buyers of drugs.
                              State Medicaid agencies establish reimbursement methodologies for the
                              ingredient cost of covered outpatient drugs. These reimbursement
                              methodologies typically apply a discount to published prices, such as
                              average wholesale price (AWP). 13, 14 These reimbursement
                              methodologies are included in a State Medicaid agency’s State plan and
                              must be approved by CMS. 15
                              State Medicaid agencies must also set a reasonable dispensing fee for all
                              covered outpatient drugs they reimburse. 16 This fee reimburses a
                              pharmacy’s cost of providing the drug to a Medicaid patient. 17
                              Dispensing fees ranged from $1.50 to $12.50 per prescription in 2009. 18
                              Some State Medicaid agencies set higher dispensing fees for generic
                              drugs to encourage generic prescribing.
                              State Medicaid agencies can use prepay edits and postpay reviews to
                              prevent overpayments and ensure that reimbursements for covered
                              outpatient drugs are consistent with established policies. Prepay edits
                              enable processing systems to compare claim amounts to established
                              reimbursement limits and automatically pay all or part of a claim, deny
                              all or part of a claim, or suspend all or part of a claim for manual


                                  12 2009 Medicaid utilization data from CMS.
                                  13 Generally, the AWP is the price that a drug manufacturer sets for a drug and reports

                              in publicly available sources.
                                  14 Studies and audits by OIG and other experts found that the AWP overstates the prices

                              pharmacies pay by as much as 10 to 20 percent for brand-name prescription drugs. See
                              OIG, Office of Audit Services, Medicaid Pharmacy – Actual Acquisition Cost of Brand-Name
                              Prescription Drug Products (A-06-00-00023) and Congressional Budget Office, Prices for
                              Brand-Name Drugs Under Selected Federal Programs (June 2005).
                                  15 42 CFR § 447.518(a).
                                  16 42 CFR § 447.512(b)(1).
                                  17 42 CFR § 447.502.
                                  18 This range excludes dispensing fees for home intravenous therapy.
                                                                                                  Medicaid
                              Prescription Reimbursement Information by State – Quarter Ending September 2009.
                              Accessed at http://www.cms.hhs.gov on October 29, 2009.



    OEI-05-09-00321           S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   3
I   N T    R O        D   U      C T           I     O       N


                              review. Postpay reviews include formal audits and ongoing monitoring
                              of billing patterns. Audits typically involve document reviews or site
                              visits to identify overpayments and may result in monetary recovery.
                              340B Program and Medicaid
                              Covered entities choose whether to dispense 340B-purchased drugs to
                              Medicaid patients, which affects how they interact with State Medicaid
                              agencies.19 If covered entities choose not to dispense 340B-purchased
                              drugs to Medicaid patients, they instead dispense drugs that were
                              purchased outside of the 340B Program. Because of that, covered
                              entities can bill State Medicaid agencies at the standard reimbursement
                              rates that those agencies have established for all retail pharmacies.
                              Covered entities might make this choice because their State Medicaid
                              agencies’ standard reimbursement rates for covered outpatient drugs
                              are higher than the purchase prices. 20 However, if covered entities elect
                              to dispense 340B-purchased drugs to Medicaid patients, specific 340B
                              policies and guidance apply. Approximately 42 percent of covered
                              entities indicated that they had dispensed 340B-purchased drugs to
                              Medicaid patients at the time of our study (first quarter of 2010). 21
                              State Medicaid agencies’ policies for 340B-purchased drugs. State Medicaid
                              agencies may set specific policies for covered entities that dispense
                              340B-purchased drugs to Medicaid patients (340B policies), though
                              CMS does not require them to do so. If a State Medicaid agency’s
                              340B policy requires covered entities to bill and be reimbursed for
                              340B-purchased drugs at their actual acquisition costs (AAC), then the
                              State Medicaid agency receives the full benefit of the 340B discount. If
                              a State Medicaid agency’s 340B policy allows covered entities to bill and
                              be reimbursed for 340B-purchased drugs above AAC, then the State
                              Medicaid agency shares a portion of the savings from the 340B discount
                              with covered entities.
                              HRSA guidance to covered entities about billing State Medicaid agencies. HRSA
                              has twice issued guidance for covered entities that bill State Medicaid



                                  19 65 Fed. Reg. 13983, 13984 (Mar. 15, 2000).
                                  20 The amount Medicaid reimburses, based on AWP, is typically higher than the 340B
                              price, which is based on AMP. The difference in reimbursement for 340B- versus
                              non-340B-purchased drugs is discussed in previous OIG reports. See OIG, Cost
                              Containment of Medicaid HIV/AIDS Drug Expenditures, OEI-05-99-00611, July 2001; and
                              OIG, Medicaid’s Mental Health Drug Expenditures, OEI-05-02-00080, August 2003.
                                  21 According to the Medicaid Exclusion File, a subset of HRSA’s covered entity database.




    OEI-05-09-00321           S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   4
I   N T    R O        D   U      C T           I     O       N


                              agencies for 340B-purchased drugs. In 1993, HRSA issued guidance
                              stating:
                                          When a covered entity submits a bill to the State Medicaid
                                          agency for a drug purchased by or on behalf of a Medicaid
                                          beneficiary, the amount billed shall not exceed the entity’s
                                          actual acquisition cost for the drug, as charged by the
                                          manufacturer. … This will assure that the discount to the
                                          covered entity will be passed on to the State Medicaid
                                          agency.22
                              In 2000, HRSA altered its guidance, stating that it was reconsidering
                              the AAC provision in its 1993 guidance, and directed covered entities to
                              “refer to their respective Medicaid State agency drug reimbursement
                              guidelines for applicable billing limits.” 23 Provisions in the ACA require
                              “the development of more detailed guidance describing methodologies
                              and options available to covered entities for billing covered drugs to
                              State Medicaid agencies in a manner that avoids duplicate discounts.” 24
                              Chart 1 shows the policies and guidance related to covered entities
                              dispensing 340B-purchased drugs to Medicaid patients.




                                  22 58 Fed. Reg. 27293, 27293 (May 7, 1993).
                                  23 65 Fed. Reg. 13983, 13984 (Mar. 15, 2000).
                                  24 ACA, P.L. 111-148 § 7102(a), PHS Act § 340B(d)(2)(B)(iii), 42 U.S.C.

                              § 256b(d)(2)(B)(iii).



    OEI-05-09-00321           S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   5
I   N T      R O       D     U     C T            I    O       N




       Chart 1: Policies and Guidance for Covered Entities That Dispense
       340B-Purchased Drugs to Medicaid Patients


                      HRSA                                                                                                                 CMS




              Covered entities should
              follow State Medicaid                                                                                          Does not require State
              agencies’ reimbursement                                                                                        Medicaid agencies to
              policies for                                                                                                   have 340B policies*
              340B-purchased drugs




                                                                                 May have                                         State Medicaid
                     Covered entities                                            340B policies                                       agencies


    Source: OIG analysis of HRSA guidance and State Medicaid agencies’ 340B policies, 2010.
    * CMS issued guidance to State Medicaid agencies in 1993 and 2000 advising them that covered entities are required to bill at
    AAC.

                                 Preventing duplicate discounts. State Medicaid agencies obtain rebates
                                 from drug manufacturers for covered outpatient drugs dispensed to
                                 Medicaid patients. 25 To request Medicaid rebates, State Medicaid
                                 agencies send drug manufacturers quarterly invoices based on the type
                                 and quantity of drugs that the State reimbursed (utilization data).26
                                 There is a potential for drug manufacturers to pay duplicate discounts if
                                 they pay Medicaid rebates to State Medicaid agencies for drugs that
                                 they have already sold to covered entities at discounted prices through
                                 the 340B Program. Duplicate discounts are prohibited by law.27 To
                                 prevent duplicate discounts when claiming Medicaid rebates, State
                                 Medicaid agencies need to identify claims for 340B-purchased drugs
                                 (340B claims) and exclude them from the utilization data submitted to
                                 drug manufacturers.


                                    25 Drug manufacturers must enter into rebate agreements with the Secretary of the

                                 Department of Health & Human Services and pay quarterly rebates to State Medicaid
                                 agencies for their drugs to qualify for Medicaid reimbursement. Social Security Act,
                                 § 1927(a)(1).
                                     26 42 U.S.C § 1396r-8(b)(2)(A).
                                     27 42 U.S.C. § 256b(a)(5)(A).




    OEI-05-09-00321              S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   6
I   N T   R O     D    U   C T          I     O      N


                           HRSA established a Medicaid Exclusion File to help State Medicaid
                           agencies identify 340B claims.28 The file, a subset of HRSA’s covered
                           entity database, lists covered entities that dispense 340B-purchased drugs
                           to Medicaid patients. State Medicaid agencies should be able to use this
                           database to identify and exclude all of the 340B claims associated with
                           these covered entities from the utilization data submitted to drug
                           manufacturers.
                           Previous OIG Studies
                           OIG has conducted several studies on the 340B Program. Previous OIG
                           studies found inaccuracies in covered entities’ contact and participation
                           information in HRSA’s covered-entity database. 29 OIG also found that
                           because of systemic problems with the accuracy and reliability of
                           HRSA’s record of 340B ceiling prices, HRSA was unable to appropriately
                           oversee the 340B Program. 30 Finally, OIG found that covered entities
                           were paying more than 340B ceiling prices, resulting in projected
                           overpayments of $3.9 million in June 2005. 31


                           METHODOLOGY
                           Scope
                           In response to the congressional request to look at reimbursement
                           practices related to 340B-purchased drugs, this study describes State
                           Medicaid agencies’ policies for covered outpatient drugs purchased under
                           the 340B Program. It also describes State Medicaid agencies’ oversight of
                           their reimbursements for 340B-purchased drugs, including State Medicaid
                           agencies’ ability to prevent overpayments for 340B-purchased drugs and
                           duplicate discounts.
                           This study does not include information on covered entities’ knowledge of
                           States’ policies or oversight. This study collected information from State
                           Medicaid agencies, not from covered entities. Further, this study does not
                           assess how different State Medicaid agencies’ policies affect States’ or




                               28 58 Fed. Reg. 27293, 27293 (May 7, 1993).
                               29 OIG, Deficiencies in the 340B Drug Pricing                                    Program’s Database, OEI-05-02-00071,
                           June 2004.
                             30 OIG, Deficiencies in Oversight of the 340B Drug Pricing Program, OEI-05-02-00072,
                           October 2005.
                               31 OIG,       Review of 340B Prices, OEI-05-02-00073, July 2006.



     OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   7
I   N T    R O        D   U      C T           I     O       N


                              covered entities’ finances. Finally, this study does not include information
                              about State Medicaid agencies’ policies for physician-administered drugs.32
                              Data Collection and Analysis
                              In March 2010, we surveyed 50 State Medicaid agencies and the District of
                              Columbia’s Medicaid agency (hereinafter referred to as States). We asked
                              about State policies for 340B-purchased drugs, activities to monitor
                              payments and enforce their policies, identification of 340B claims, and
                              communication with CMS or HRSA regarding the 340B Program.
                              We conducted a pretest of the survey with two States and, where
                              appropriate, revised the survey based on pretesters’ feedback.
                              We emailed the survey to each State’s Medicaid director with instructions
                              to consult with or delegate the survey to a pharmacy director or other
                              official familiar with the State’s policies and oversight regarding
                              340B-purchased drugs. We received 51 replies for a 100-percent response
                              rate. We followed up with States to clarify survey responses, where
                              necessary.
                              For the purposes of this study, we counted a State as having a 340B policy
                              only if it was documented in writing. We asked States to identify the
                              types of documents that contained their policies and for citations when the
                              policies were written in State laws, administrative codes, or pharmacy
                              manuals. In some cases, we consulted the text of the written policies to
                              clarify survey responses.
                              We exported survey results from Adobe LiveCycle to Microsoft Excel for
                              analysis. We analyzed the survey data using Microsoft Excel. We also
                              analyzed States’ narrative responses for additional themes.
                              Limitations
                              This study relies on self-reported survey data from States. We did not
                              verify States’ responses.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.


                                32 A physician-administered drug is a prescription drug that is directly administered to a

                              patient by a physician during an outpatient office or hospital visit (e.g., certain injectible
                              drugs). Because prescriptions for physician-administered drugs are not filled at retail
                              pharmacies, they are generally not covered by the same reimbursement policies as other
                              outpatient drugs.


    OEI-05-09-00321           S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   8
      F I N D I N G S

Approximately half of States have written 340B           Twenty-five States reported having
    policies that direct covered entities to bill        340B policies that direct covered
                                                         entities to bill at cost (i.e., AAC) for
   Medicaid at cost for 340B-purchased drugs
                                                         340B-purchased drugs. The
                     policies appear in documents such as State laws, State administrative
                     codes, State Medicaid pharmacy manuals, official letters to covered
                     entities, and written agreements between States and covered entities.
                     Another State reported having a written 340B policy. However, its
                     policy is to reimburse 340B-purchased drugs at AWP price minus a
                     certain percentage. The percentages of AWP used in this calculation
                     vary by each covered entity and range from 23 to 36 percent.33
                     See Appendix A for a list of States and whether they have written
                     340B policies.
                     Seven of the twenty-five States that have written 340B policies
                     directing covered entities to bill at AAC provide a higher dispensing fee
                     for 340B-purchased drugs than for non-340B-purchased drugs. 34 These
                     States reported that they offer a higher dispensing fee for two main
                     reasons. First, States reported offering a higher dispensing fee to
                     extend additional resources to covered entities. Second, States reported
                     that they set a higher dispensing fee for 340B-purchased drugs to
                     motivate covered entities to dispense such drugs to Medicaid patients.
                     Given that 340B ceiling prices are considerably lower than States’
                     standard reimbursement rates for drugs, States might save money
                     (even when paying a higher dispensing fee) if more covered entities
                     dispensed 340B-purchased drugs to Medicaid patients.
                     Twenty-five States do not have written 340B policies
                     Of the 25 States that do not have written 340B policies, 16 reported that
                     they want covered entities to bill at AAC for 340B-purchased drugs.
                     Fifteen of these sixteen States reported that they do not have written
                     340B policies because they believe that HRSA’s 1993 guidance to
                     covered entities to bill at AAC is in effect. However, HRSA’s 2000
                     guidance withdrew the AAC provision of the 1993 guidance and directed
                     covered entities to follow State guidelines for billing 340B-purchased
                     drugs. 35 States that rely on HRSA’s old guidance and do not have


                         33 The State’s reimbursement for non-340B-purchased drugs is AWP minus 11.5 percent.
                         34 Connecticut, Florida, Louisiana, Massachusetts, Oregon, Vermont, and West Virginia.
                         35 65 Fed. Reg. 13984 (Mar. 15, 2000).




   OEI-05-09-00321   S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   9
F   I   N   D I       N G    S


                            written policies may not be able to enforce their expectation that
                            covered entities bill at AAC.
                            Nine of the twenty-five States without written policies did not provide
                            information about their expectations of covered entities’ billing.
                            However, according to four of these States, covered entities did not
                            dispense 340B-purchased drugs to Medicaid patients at the time of our
                            survey.
                            States with and without written 340B policies requested more Federal
                            guidance
                            Eleven States reported that they want more Federal guidance on the
                            intersection of Medicaid and the 340B Program. 36 Of these States,
                            5 have written policies and 6 do not.
                            About half of the 11 States reported that CMS and HRSA guidance to
                            States and covered entities on this topic is inconsistent and insufficient
                            given the 340B Program’s complexity. For example, three States offered
                            the following comments:
                            • It would be very helpful if more information and clarification on
                               340B rules and regulations by HRSA and CMS are shared with the
                               States. Direct communication to States regarding how to track and
                               monitor 340B covered entities would be appreciated.
                            • Intersections between 340B Program rules, pricing, AAC
                               requirements, and Medicaid administration and payments are
                               complex, inconsistent, and nonaligned.
                            • Neither [the 340B Program nor Medicaid] has enough guidance for
                               the two to operate together.
                            These comments describe some of the complexity and potential for
                            confusion that arises from the intersection of Medicaid and the 340B
                            Program.




                              36 Forty States did not comment on this issue in response to open-ended questions on our

                            survey.



    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   10
 F   I   N   D I       N G    S


States do not have necessary pricing information                       States do not have 340B
to create prepay edits for 340B-purchased drugs;                       ceiling prices or covered
    20 States conduct postpay reviews to identify                      entities’ AAC for
                                   overpayments                        340B-purchased drugs
                                                                       (together referred to as 340B
                             drug prices).37 States do not have 340B ceiling prices because they
                             are calculated using AMP, to which States historically have not had
                             access. Further, no States reported regularly collecting covered
                             entities’ AAC, even though 41 States expect covered entities to bill at
                             AAC. The AAC varies by drug, quarter, and covered entity, so
                             collecting it from covered entities regularly is difficult.
                             States cannot create effective 340B-specific prepay edits without 340B
                             drug prices. In fact, 20 States reported that they need 340B drug prices to
                             help them oversee their reimbursements for 340B-purchased drugs. 38
                             Without 340B drug prices, States are unable to tell when the amount
                             billed exceeds established reimbursement policies, which typically are set
                             at AAC. Without prepay edits, States reimburse 340B-purchased drugs at
                             the amounts that covered entities bill—which may be above 340B prices—
                             even if States have a policy of reimbursing covered entities at 340B prices.
                             While one State reported using a 340B-specific edit, the edit relies on
                             historic data to estimate one type of covered entities’ acquisition costs for
                             four drugs.
                             Although almost no States have 340B-specific prepay edits, 48 have
                             general prepay edits. However, these edits are insufficient to prevent
                             reimbursements above 340B prices. General prepay edits apply to all
                             Medicaid outpatient prescription drug claims and prevent payment above
                             a calculated maximum allowable amount. These edits are insufficient to
                             prevent reimbursements above 340B prices for 340B claims because the
                             maximum allowable cost typically is higher than the 340B price. This
                             means that it is possible for a State to pay more than the 340B price even
                             when capping reimbursement at the maximum allowable cost for each
                             drug.
                             States that do not have written 340B policies may be particularly
                             vulnerable to such overpayments. Without written policies to reference,


                               37 The 340B ceiling prices and AAC may differ if a covered entity purchases a drug at a

                             price lower than the 340B ceiling price.
                               38 Thirty-one States did not comment on this issue in response to open-ended questions

                             on our survey.



     OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   11
F   I   N   D I       N G    S


                            covered entities may not know how States expect them to bill. For
                            example, a hospital industry group surveyed disproportionate share
                            hospitals, a type of covered entity, in 27 States and found that many of
                            the surveyed hospitals did not know what their States’ 340B policies
                            were. 39 If covered entities are not aware that a State expects them to
                            bill at AAC for 340B-purchased drugs, they might bill above AAC and,
                            in the absence of a 340B-specific prepay edit, a State would reimburse
                            those covered entities above AAC.
                            Twenty States conduct postpay reviews to identify overpayments for
                            340B-purchased drugs
                            Twenty States reported that they conduct postpay reviews of
                            reimbursements for 340B-purchased drugs. Fourteen States reported that
                            they conduct audits, and eight reported that they conduct ongoing
                            monitoring (two States do both). Of the 20 States that conduct postpay
                            reviews, 14 have written 340B policies.
                            Of the 14 States that conducted audits, 8 reported finding overpayments
                            for 340B-purchased drugs. These 8 States audited 41 covered entities over
                            a 10-year period and found approximately $2.6 million in overpayments.
                            The 41 audited covered entities represent approximately 3 percent of the
                            covered entities in the 8 States. Generally, these States reviewed invoices
                            to compare covered entities’ AAC to the States’ reimbursements. States
                            conducted these audits between October 1999 and June 2009.
                            Most of the submitted audit documentation did not describe why
                            overpayments occurred, although one State that audited hospital
                            outpatient pharmacies found that the hospitals overbilled the State
                            because of errors in hospital billing systems. The hospitals reported to the
                            State that their billing systems had not been updated in time to reflect
                            quarterly changes to 340B drug prices.
                            Eight States reported that they monitor reimbursements after claims for
                            340B-purchased drugs are paid by conducting periodic checks of covered
                            entities’ billing. In some cases, States compare their estimates of AAC to
                            covered entities’ billed amounts to identify potential overpayments. For
                            example, one State compares reimbursements for 340B-purchased drugs to
                            73 percent of the amount it reimburses for drugs purchased outside the
                            340B Program. Estimating AAC could lead to imprecise identification of

                                39 Safety Net Hospitals for Pharmaceutical Access,
                                                                                Shedding Light on Medicaid Billing
                            Requirements: A Survey of State Policies Addressing the Drug Billing Practices of 340B
                            Hospitals, November 16, 2009. Accessed at http://www.snhpa.org/ on November 20, 2009.



    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   12
 F   I   N   D I       N G    S


                             overpayments because 340B drug prices fluctuate each quarter and do not
                             necessarily fluctuate in concert with other drug prices.


Over half of States developed alternatives to the                   Thirty States reported that they use
 Medicaid Exclusion File to identify 340B claims                    alternatives to the Medicaid
                 and prevent duplicate discounts                    Exclusion File, a subset of HRSA’s
                                                                    covered-entity database, to identify
                             340B claims. Ten of the thirty States reported that they developed
                             alternatives because the file contains inaccurate data. Previous OIG work
                             found inaccuracies in other fields of HRSA’s covered-entity database, such
                             as enrollment status, and billing and shipping information.40
                             States need accurate data to identify 340B claims so they do not subject
                             drug manufacturers to duplicate discounts by including 340B claims in
                             utilization data submitted for Medicaid rebates. Alternatively, States may
                             forgo rebates they are owed if non-340B claims are incorrectly excluded
                             from utilization data submitted for Medicaid rebates.
                             Of the 30 States that created alternatives to the Medicaid Exclusion File,
                             26 contacted all or some covered entities directly and created their own
                             lists of covered entities that dispense 340B-purchased drugs to Medicaid
                             patients.
                             On the other hand, 11 of the 30 States instructed covered entities to
                             identify 340B claims. These States instruct covered entities to identify
                             340B claims in one of two ways. Nine States instruct covered entities to
                             identify 340B claims using the National Council for Prescription Drug
                             Plan (NCPDP) Telecommunication Standard 5.1 when they submit a 340B
                             claim. 41 Two States instruct covered entities to bill 340B claims using an
                             alternative billing identification number provided to covered entities that
                             bill Medicaid for 340B-purchased drugs.
                             Seven States use their own lists and instructions to covered entities to
                             identify 340B claims.


                                40 Previous OIG work found inaccuracies in HRSA’s covered-entity database related to
                             covered entities’ enrollment status and address, as well as billing and shipping information.
                             Deficiencies in the 340B Drug Discount Program’s Database (OEI-05-02-00071). Accessed
                             at http://oig.hhs.gov/ on May 13, 2010.
                                 41 The NCPDP Telecommunication Standard 5.1 is the electronic transaction standard
                             that pharmacies and payers use to submit and exchange information about prescription
                             drug claims. The new version of the NCPDP Telecommunication Standard (version D.0)
                             reserves a specific value, 08, to indicate a 340B claim.



     OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   13
F   I   N   D I       N G    S


                            Chart 2 shows States’ reported alternative methods to identify 340B
                            claims.


Chart 2: States’
    Methods To                                               7
  Identify 340B
         Claims                                                                                                   14


                                                                                                                                         Medicaid Exclusion File only


                                                                                                                                         Medicaid Exclusion File and one
                                                                                                                                         or more alternative methods
                                    10
                                                                                                                                         One or more alternative methods
                                                                                                                                         only
                                                                                                                                         No method reported




                                                                                         20




                            Source: OIG analysis of survey data, 2010.


                            Neither of the alternative methods employed by the 30 States necessarily
                            ensures accurate identification of 340B claims. States’ lists of covered
                            entities that dispense 340B-purchased drugs to Medicaid patients may not
                            be more accurate than the Medicaid Exclusion File. Additionally, States
                            that instruct covered entities to identify 340B claims must rely on covered
                            entities to do so accurately and consistently.
                            Fourteen States rely solely on the Medicaid Exclusion File to identify 340B
                            claims, and seven States do not use any method to identify 340B claims
                            Fourteen States reported that they use only the Medicaid Exclusion File to
                            identify 340B claims. As discussed previously, 10 States reported
                            inaccuracies in the file and use alternative methods to identify 340B
                            claims. Inaccuracies in the file could mean that these 14 States may not
                            accurately identify 340B claims. When States do not accurately identify
                            340B claims, they may subject drug manufacturers to duplicate discounts
                            or not claim Medicaid rebates that they are owed.
                            Seven States did not report a method of identifying 340B claims and may,
                            as a result, submit utilization data to drug manufacturers that include
                            340B claims, subjecting manufacturers to duplicate discounts. Of these
                            seven States, four reported that, at the time of the survey, no covered
                            entities had submitted 340B claims. One State reported that it was


    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS              14
F   I   N   D I       N G    S


                            implementing a system of identifying 340B claims. Two States did not
                            report a reason for not identifying 340B claims.




    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   15
R   E C   O M M E N D A T I O N S
       R E C O M M E N D A T I O N S


                      RECOMMENDATIONS
                      Our findings raise concerns about States’ ability to conduct oversight
                      activities related to 340B-purchased drugs. Nearly half of States (25 of
                      51) do not have 340B policies. Fifteen of these States reported that they
                      expect covered entities to bill 340B-purchased drugs at AAC based on
                      the rescinded 1993 HRSA guidance. Additionally, States do not have
                      drug pricing information necessary to create prepay edits for
                      340B-purchased drugs to prevent overpayments. Finally, over half of
                      States developed alternatives to the Medicaid Exclusion File to identify
                      340B claims and prevent duplicate discounts. Some of these States
                      reported that they had to develop alternatives because of inaccurate
                      data in the Medicaid Exclusion File.
                      Based on these findings, we recommend that:
                      CMS direct States to create written 340B policies
                      CMS should direct States to create written 340B policies if they do not
                      have them because current HRSA guidance directs covered entities to
                      follow States’ 340B policies. CMS should encourage States to make
                      their written policies widely available to interested parties, including
                      covered entities. CMS should also alert States to any new HRSA-issued
                      guidance about covered entities billing States for 340B-purchased
                      drugs.
                      CMS could also encourage States to consider the benefits and
                      drawbacks of different 340B policies before setting their policies (e.g.,
                      consider how State expenditures might be affected if covered entities
                      decide to dispense non-340B purchased drugs to Medicaid patients). As
                      part of this effort, States could work with covered entities to explore
                      policy options that might result in savings for the States and the
                      covered entities. HRSA’s Web site has information about covered
                      entities and the 340B Program that States could consult in setting their
                      policies.
                      CMS inform States about tools they can use to identify claims for
                      340B-purchased drugs
                      CMS should inform States of the multiple ways to identify 340B claims.
                      States can instruct covered entities to use the NCPDP
                      Telecommunication Standard to identify claims for 340B-purchased
                      drugs. The new version of the NCPDP Telecommunication Standard
                      (version D.0) reserves a specific value, 08, to indicate that a claim is for
                      a 340B-purchased drug.

    OEI-05-09-00321   S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   16
R   E C     O    M    M   E     N D           A T           I       O     N       S


                          CMS could also direct States to the Medicaid Exclusion File tutorial on
                          HRSA’s Web site. HRSA developed the tutorial to help States and
                          others understand how to use the file to identify covered entities
                          dispensing 340B-purchased drugs to Medicaid patients.
                          HRSA share 340B ceiling prices with States
                          Providing 340B ceiling prices to States would help States create prepay
                          edits to ensure that they accurately reimburse 340B-purchased drugs.
                          Although the ACA gave HRSA authority to share 340B ceiling prices
                          with covered entities, HRSA would have to seek legislative authority to
                          share those prices with States. Once given that authority, HRSA could
                          use the mechanism that it establishes to share 340B ceiling prices with
                          covered entities to share those prices with States as well.
                          HRSA, in conjunction with CMS, improve the accuracy of the Medicaid
                          Exclusion File
                          HRSA should instruct covered entities to update their information in
                          the Medicaid Exclusion File as part of the new annual database
                          recertification required by the ACA.
                          HRSA could also work with States to ensure that covered entities’
                          information in the Medicaid Exclusion File is correct. HRSA could
                          obtain updated information on covered entities from States that have
                          verified all or part of the file for their State. To assist HRSA, CMS
                          could provide HRSA with contacts familiar with the covered entities in
                          their respective States. CMS could also instruct States to notify HRSA
                          if they find discrepancies between their records and the Medicaid
                          Exclusion File.


                          AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                          GENERAL RESPONSE
                          CMS concurred with our recommendations. To address them, CMS
                          plans to (1) inform States that they should incorporate 340B policies
                          into their Medicaid State Plans, (2) inform States of alternative
                          methods of identifying 340B claims that we identified in this report, and
                          (3) facilitate communication between HRSA and States by providing a
                          list of State Medicaid pharmacy directors to HRSA and instructing
                          States to contact HRSA when errors in the Medicaid Exclusion File are
                          found.
                          CMS requested further information regarding our statement in the first
                          recommendation about States conducting cost-benefit analyses before


    OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   17
R   E C     O    M    M   E     N D           A T           I       O     N       S


                          setting their policies. In response, we revised the language in the
                          recommendation.
                          HRSA generally concurred with our recommendation that it share 340B
                          ceiling prices with States. HRSA agreed that such sharing may improve
                          Medicaid reimbursement if States use the information to design 340B
                          policies that result in savings for States and covered entities. HRSA
                          also emphasized that 340B policies should take into account the impact
                          on covered entities and additional costs associated with the patient
                          populations they serve. HRSA did not, however, specify any action it
                          would take to address this recommendation. We continue to
                          recommend that HRSA take steps to share 340B ceiling prices with
                          States.
                          HRSA also concurred with our recommendation to improve the accuracy
                          of the Medicaid Exclusion File. HRSA stated that its guidance from
                          March 2000 requires covered entities to keep their information in the
                          file up to date. HRSA also encouraged States to share any discrepancies
                          found between States’ records and the file, noting that such information
                          sharing would improve oversight of the 340B Program and compliance
                          with the prohibition of duplicate discounts. However, HRSA did not
                          indicate that it would take new action to instruct covered entities to
                          update their information in the Medicaid Exclusion File. We continue
                          to recommend that HRSA include specific instruction to covered entities
                          to update their information in the file as part of any new guidance it
                          issues defining the new annual database recertification required by the
                          ACA.
                          HRSA provided technical comments on the report, which we
                          incorporated where appropriate.
                          For the full text of CMS and HRSA comments, see Appendix B.




    OEI-05-09-00321       S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   18
      A P P E N D I X                                  ~              A

Table A-1: State Medicaid Agencies’ 340B Policies

                           Written
State                                                                                                                                 Location(s) of Written Policy
                           Policy

Alabama                                                                                                                               State administrative code

Alaska                                                                           State administrative code, pharmacy manual, official letter

Arizona                             -                                                                                                                              -

Arkansas                                                                                                                                            Official letter

California                                                                                                                         State law, pharmacy manual

Colorado                            -                                                                                                                              -

Connecticut                                                                                                                                            State law

Delaware                            -                                                                                                                              -

District of Columbia                -                                                                                                                              -

Florida                                                         State law, state administrative code, pharmacy manual, official letter

Georgia                                                                                                                                       Pharmacy manual

Hawaii                                                                                                                 State law, state administrative code

Idaho                               -                                                                                                                              -

Illinois                                                                                                         Pharmacy manual, written agreements

Indiana                             -                                                                                                                              -

Iowa                                                                                                                            Pharmacy manual, official letter

Kansas                              -                                                                                                                              -

Kentucky                                                                                               State administrative code, pharmacy manual

Louisiana                                                                                              State administrative code, pharmacy manual

Maine                               -                                                                                                                              -

Maryland                            -                                                                                                                              -

Massachusetts                                                                                                                         State administrative code

Michigan                                                                                                                                      Pharmacy manual

Minnesota                                                                                                                                   Written agreements

Mississippi                         -                                                                                                                              -

Missouri                            -                                                                                                                              -

Montana                                                                                                                                             Official letter

                                                                                                                                                continued on next page




OEI-05-09-00321        S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS                  19
A   P P     E     N   D I      X         ~             A




          Table A-1: State Medicaid agencies’ 340B Policies, Continued

                                          Written
          State                                                                                                                                    Location(s) of Written Policy
                                          Policy

          Nebraska                                 -                                                                                                                            -

          Nevada                                   -                                                                                                                            -

          New Hampshire                            -                                                                                                                            -

          New Jersey                               -                                                                                                                            -

          New Mexico                               -                                                                                                                            -

          New York                                                                                                                                                  State law

          North Carolina                                                                                                                                   Pharmacy manual

          North Dakota                             -                                                                                                                            -

          Ohio                                     -                                                                                                                            -

          Oklahoma                                                                                                                                               Official letter

          Oregon                                                                                                                                           Pharmacy manual

          Pennsylvania                             -                                                                                                                            -

          Rhode Island                             -                                                                                                                            -

          South Carolina                           -                                                                                                                            -

          South Dakota                                                                                                                             State administrative code

          Tennessee                                                                                                                                      Written agreements

          Texas                                                                      State administrative code, pharmacy manual, written agreements

          Utah                                     -                                                                                                                            -

          Vermont                                                                                                                                        Written agreements

          Virginia                                 -                                                                                                                            -

          Washington                                                                                                  State administrative code, pharmacy manual

          West Virginia                                                                                                         Pharmacy manual, written agreements

          Wisconsin                                -                                                                                                                            -

          Wyoming                                  -                                                                                                                            -

          Source: Office of Inspector General analysis of survey data, 2010.




          OEI-05-09-00321             S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS                20
    A P PEN D                       x                 B



     Agency Comments

     CMS Comments




                                                                                               Oenters for Medicare & Medicaid SelVices


                                                                                               Administrator
                                                                                               Washington, DC 20201




                  DATE:           filAR 231m
                  TO: 	          Daniel R. Levinson
                                 Inspector Oeneral

                  FROM: 	        Donald M. Berwick, M.D.
                                                             /S/
                                 Administrator

                  SUBJECT:       Office of Inspector General (010) Draft Report: State Medicaid Policies and
                                 Oversight Activities Related to 340B Purchased Drugs (OEI-05-09-00321)


                  Thank you for the opportunity to review and comment on the 010 Draft Report entitled, "State
                  Medicaid Policies and Oversight Activities Related to 340B Purchased Drugs," (OEI-05-09­
                  00321). The purpose pfthis report wa~ to described State Medicaid agencies' policies and
                  oversight activities related to drugs purchased under the 340B Drug Discount Program.

                  The 340B Drug Discount Program requires drug manufacturers to provide covered outpatient
                  drugs to certain eligible entities at or below a statutorily defined ceiling price. The 340B
                  Program is administered through the Health Resources and Services Administration (HRSA).
                  State Medicaid agencies may set specific policies for covered entities that dispense 340B drugs
                  t6 Medicaid patients.

                  The oro found that approximately half of States have written 340B policies that direct covered
                  entities to bill Medicaid at cost for 340B-purchased drugs. Over half pf States without written
                  policies reported that they rely on HRSA's 1993 guidance directing covered entities to bill States
                  at actual acquisition cost (AAC) and expect covered entities to bill at AAC. The 010 also found
                  that States do not have adequate infonnation to create prepay edits for 340B-purchased drugs due
                  to logistical and legal issues. However, twenty States conduct postpay reviews to identify
                  overpayments for 340B-purchased drugs. Finally, the OIG found that States employ a variety of
                  methods 10 identify 340B claims to prevent duplicate discounts. These methods include
                  contacting covered entities directly and maintaining their own list, utilizing HRSA's Medicaid
                  Exclusion File, instructing covered entities to use the National Council for Prescription Drug
                  Plans (NCPDP) Telecommunications Standard, and instructing covered entities to bill Medicaid
                  using an alternative billing identification nwnber.

                  OIG .Recommendation

                  CMS should direct States to establish written 340B policies if they do not already have policies
                  in place. Further, CMS should alerl States to any new guidance HRSA issues about covered




OEI·05-09-00321       STATE MEDICAID POLICIES AND OVERSIGHT ACTIVITIES RELATED TO 340B·PURCHASED DRUGS                                    21
A   P P     E   N     D I      X            ~           B




    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   22
A P PEN            D      x               8



      HRSA Comments




                         DEPARTMENT OF HEALTH &. HUMAN SERvrCES
                                                                                                 Health Resources and Services
                                                                                                 Administration


                                                                                                 Rockville MD 20857
                                                               MAR 1 6 2011


                        TO: 	         Inspector General

                        FROM: 	       Administrator

                       SUBJECT: 	     Office ofTnspector General Draft Report: "State Medicaid Policies and 

                                      Oversight Activities Related to 340B-Purchased Drugs" 

                                      (OEI-05-09-0032 J) 



                       This is in response to the Office ofInspector General's (OIG) request for comments on
                       the draft report: "State Medicaid Policies and Oversight Activities Related to 340B­
                       Purchased Dmgs" (OEI-05-09-00321). Attached are the Health Resources and Services
                       Administration's comments on this draft report. Under separate cover, technical
                       comments are also being sent to OIG. If you have any questions, please contact Sherry
                       Angwafo in HRSA's Office of Federal Assistance Management at (301) 443.9547.


                                                                     /S/
                                                           Mary K. Wakefield, Ph.D., R.N.

                       Attachment




 OEI·05·09·00321        STATE MEDICAID POLICIES AND OVERSIGHT ACTIVITIES RELATED TO 340B·PURCHASED DRUGS                         23
A   P P     E   N     D I      X            ~           B




    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   24
A   P P     E   N     D I      X            ~           B




    OEI-05-09-00321         S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   25
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas F. Komaniecki, Deputy Regional Inspector
                  General.
                  Kelly Waldhoff served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Chicago regional
                  office who contributed to the report include Adam Freeman, Abby
                  Lopez, and Carolyn Pichert; other central office staff who contributed
                  include Heather Barton.




OEI-05-09-00321   S TAT E M E D I C A I D P O L I C I E S   AND   O V E R S I G H T A C T I V I T I E S R E L AT E D   TO   340B-PURCHASED DRUGS   26
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
